         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Idaho's Radiological and
Environmental Sciences Laboratory




OAS-L-12-02                          February 2012
                                 Department of Energy
                                   Washington, DC 20585

                                       February 21, 2012


MEMORANDUM FOR THE MANAGER, IDAHO OPERATIONS OFFICE


FROM:                    Daniel M. Weeber, Director
                         Eastern Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Idaho's Radiological and
                         Environmental Sciences Laboratory"

BACKGROUND

The Department of Energy owns and operates the Radiological and Environmental Sciences
Laboratory (RESL) through the Idaho Operations Office (Idaho). RESL is a reference
measurements laboratory specializing in analytical chemistry, radiation measurements and
calibrations, and quality assurance. RESL had been located at the Idaho National Laboratory
(INL) site since 1949. The Department decided to move RESL to a new facility in Idaho Falls
because the deterioration of the existing building was increasingly compromising RESL's ability
to support the Department.

On April 7, 2011, the Office of Inspector General Hotline received a complaint alleging
improprieties with the construction and operation of RESL. The complainant alleged that the
construction, relocation and operation of RESL violated a number of Federal policy and
procedural requirements. The objective of this audit was to determine whether the relocation and
operation of RESL was appropriately managed.

CONCLUSIONS AND OBSERVATIONS

We did not identify material issues or obtain sufficient evidence to substantiate the allegations
concerning RESL's operation and relocation to Idaho Falls. However, we did identify an internal
control weakness that the Department should consider relating to accounting for renovation
costs.

                                      Phased Construction

The complainant alleged that RESL capital construction was being performed in phases to avoid
the Congressional Line Item approval and reporting processes. The complainant explained that
only a portion of RESL functions were being relocated to Idaho Falls in the first phase and the
remainder of the integral functions would be relocated to an attached facility constructed as a
new capital project after the first project was closed. According to Department policy, if the
costs of a capital project exceed $10 million, which would have occurred if the two projects were
combined, it would have been categorized as a Line Item project and required Congressional
approval for funding.
Based on our review, we were unable to substantiate the complainant's assertion. Specifically,
we found that the Department considered the relocation of RESL to Idaho Falls to involve two
separate projects that included: (1) the renovation of an existing office facility; and, (2) the
construction of a new laboratory facility; rather than the phased construction of a single facility.
To accommodate RESL needs, the Department used operating funds to renovate the south end of
a Department-owned facility to provide office space and related facilities for RESL. To meet the
laboratory needs, the Department used General Plant Project (GPP) funds to construct a new
laboratory adjacent to the renovated office space. The two buildings are connected by an
enclosed walkway.

According to the Department's Office of Risk Management and Financial Policy, the RESL
renovation and construction was not a single new construction project. The Department's
Accounting Handbook, Chapter 10, prohibits the use of GPP funds, which do not require
Congressional Line Item approval, to fund incremental segments in the construction of larger
facilities. However, a Department policy official stated that the separate renovation and
construction projects did not violate this policy. Instead, the Department considered the
renovation of the existing office space a separate project which could be paid for with operating
funds. Our review found that the use of operating funds for renovations does not violate
accounting policies. The $2.1 million cost to renovate the office space was expensed and the
nearly $9.8 million cost to construct the laboratory was capitalized. We also found that
additional costs associated with conceptual design and project closeout of the laboratory, which
totaled approximately $800 thousand, were also expensed according to Department policies.

                              Mission Need and Privatization Study

The complainant alleged that no Mission Need Statement was prepared to document the need for
the capability that RESL provided. Further, the complainant indicated that no privatization study
was performed to determine whether RESL program activities should be performed by the
private sector or another Federal agency.

Contrary to the complainant's assertion, we found that mission need was documented and a
privatization study was performed. Mission Need Statements are required by DOE Order
413.3B, Program and Project Management for the Acquisition of Capital Assets. These
statements were completed in 2004 and revised in 2009 to support the relocation to the new
facilities. Further, the statements outlined RESL capabilities, how it supports the Department's
mission and discussed the statutory/regulatory requirements for the program. With respect to the
privatization study, in 2007, the Department conducted a standard competition in accordance
with the Office of Management and Budget Circular A-76 for RESL and concluded that Federal
operation of RESL was preferred over privatization. Under the competition, two proposals were
submitted, one from RESL and one from the Department's New Brunswick Laboratory. The
New Brunswick Laboratory later withdrew from the competition and RESL was ultimately
chosen as the most efficient organization.

                       Alternative Analysis and Life Cycle Cost Estimating

The complainant indicated that no alternative analyses or life cycle cost estimates were
performed to evaluate the feasibility and cost effectiveness of various alternatives to new
                                                 2
construction. The complainant also indicated that consideration should have included
remodeling and refurbishing the current facilities, moving RESL functions to another surplus
facility on the INL site, relocating RESL functions to another Department site, leasing laboratory
space at a much reduced cost, or taking no action.

We did not substantiate the complainant's allegation that alternative analyses were not
performed. We found that various alternatives were considered for RESL relocation.
Alternatives analyses are required by DOE Order 413.3B when new assets are procured or
constructed. A whitepaper, dated May 2009, discussed five options for moving RESL. The
options considered using existing buildings at the INL site, building a new facility, modifying
existing buildings and relocating the displaced personnel to leased space, and modifying an
existing building to include adding an annex to the building. New construction of a combined
office and laboratory facility proved to be a more costly alternative. Leasing was considered;
however, this was a long term, Federally operated program, and the cost of leasing over the long
term was determined to be prohibitive. According to the Idaho Assistant Manager for
Infrastructure, a factor that complicated the use of leased space was that such space would have
had to undergo significant modification to accommodate laboratory equipment that was unique
to RESL. In particular, demolition and reconstruction would have been necessary to install
RESL iron rooms, large steel vaults weighing several tons, into existing space. Additionally,
equipment for safely examining samples of radioactive and hazardous materials required special
filtering and ventilation that would have had to have been retrofitted if an existing facility was
used. Such work would have increased the cost estimates of any option that considered the use
of an existing facility. Also, relocating RESL to another site in the DOE complex would have
required equipment moves and significant relocation expenses associated with moving
approximately 20 RESL scientific staff to another site, in addition to the costs of modifying any
existing facility to make it operational for RESL purposes.

In addition, we confirmed the assertion of the Idaho Assistant Manager for Infrastructure that life
cycle cost estimates were not required by Department policies. Nonetheless, he believed that
several years ago a life cycle cost analysis of refurbishing the existing RESL facility at the site
may have been performed; but, he was not able to locate copies of this information. Based on
our concerns about the need to retain such documentation to support management decisions, the
Idaho Assistant Manager for Infrastructure agreed that this practice is important to project
management and should have been done for this project.

                      Equipment, Personnel, Construction and Safety Issues

The complainant expressed concern that Government-furnished equipment and personnel
relocation costs were not properly accounted for. Also, the complainant indicated that Idaho site
construction and safety standards were waived to minimize total project costs and avoid the need
for Congressional approval of the project.

We did not substantiate the complainant's allegation regarding improper accounting for
Government-furnished equipment and personnel relocation costs. Both were treated in
accordance with Department accounting policies. The only Government-furnished equipment
identified for this project was the whole body counting iron rooms that had no remaining capital
value when transferred to the new RESL. Prior to transfer to the new RESL, INL refurbished the
                                                3
room walls and paid for this with operating funds. Using operating funds to pay for the
transportation and refurbishment of the rooms was in accordance with Department accounting
policies. Also, personnel relocation costs are considered other project costs and are typically not
capitalized. Because many of these costs would occur after the facility is completed, the costs
would not factor into a decision regarding the need for Congressional Line Item approval for the
project.

Further, we found no evidence to conclude that construction and safety standards were waived
on these projects. The project execution plan stated that INL Integrated Safety Management
would be implemented. Additionally, the two construction contracts required adherence to the
Department-approved Worker Safety and Health Program, including occupation medicine
provisions and building codes. Also, the project was designed and subsequently inspected to
ensure that it met standards for the construction of new Federal buildings. Finally, construction
punch-lists were completed to ensure the facility was built to specifications, and facility design
drawings were updated to reflect the way the building was actually built – standard practices for
construction projects.

                                      Renovation Betterments

During our review we noted that the Department may not have appropriately capitalized costs
associated with the renovation of the office facility. Specifically, Department policies require
the capitalization of "betterments" – which are activities that may result in better quality of, or
higher capacity from, a facility; extend the useful life of a facility; or are necessary for regulatory
compliance – in the Department's accounting system. As part of the alterations for the office
renovation project, the Department made changes to the facility's electrical, heating, ventilating,
air-conditioning and plumbing systems, that, in certain instances, could have been defined as
betterments that conceivably extended the useful life of the existing facility. Project managers
rely on accounting officials to determine whether items of cost are betterments that should be
capitalized. However, project management officials did not provide the data needed by
accounting personnel to make an appropriate determination. Rather, the project manager
determined whether costs would be capitalized or expensed. The project manager indicated a
lack of familiarity with costing rules or the Department's Accounting Handbook. We discussed
this weakness with management officials in Budget and Finance who agreed that there should be
greater interaction between project managers and accounting officials in determining whether
costs should be expensed or capitalized in the Department's accounting system.

SUGGESTED ACTIONS

To address the internal control issue noted within this report, we suggest that the Manager, Idaho
Operations Office:

   1. Evaluate activities in the renovation project that could be considered betterments and
      capitalize those costs, as appropriate;

   2. Ensure that project managers work with accounting officials when making costing
      decisions on improvements to facilities to ensure proper categorization; and,

                                                  4
      3. Ensure that available documentation to support project decisions is retained in the project
         files.

Attachment

cc:    Deputy Secretary
       Associate Deputy Secretary
       Acting Under Secretary of Energy
       Assistant Secretary for Nuclear Energy
       Director, Office of Management
       Acting Chief Financial Officer
       Chief of Staff




                                                  5
                                                                                     Attachment


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of this audit was to determine whether the relocation and operation of Idaho
Operations Office's Radiological and Environmental Sciences Laboratory (RESL) was
appropriately managed.

SCOPE

The audit was performed between June 2011 and January 2012 at the Department of Energy's
(Department) Idaho Operations Office and Idaho National Laboratory located in Idaho Falls,
Idaho.

METHODOLOGY

To accomplish the audit objective, we:

    • Conducted a targeted review of the construction, relocation and operation of RESL and as
      it related to the issues discussed in the complaint;

    • Held discussions with officials from the Idaho Operations Office, RESL and the Office of
      Risk Management and Financial Policy, and with contractor officials regarding the
      operation and relocation of RESL;

    • Toured the old RESL facility to ascertain its operating condition and understand the
      decision for relocation. We also toured the new facility to better understand the
      construction process and learn how RESL's functions would be performed in the new
      environment;

    • Obtained and reviewed documentation pertaining to mission need, privatization, project
      execution plans, alternatives considered, construction contracts, construction costs and
      safety standards; and,

    • Reviewed the Department Accounting Handbook and laws and regulations related to
      project management and costing.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. Accordingly, the audit included tests of
controls and compliance with laws and regulations to the extent necessary to satisfy our
objective. In particular, we assessed the Department's implementation of the Government
Performance and Results Act of 1993 and concluded that it had established performance

                                                6
                                                                                      Attachment

measures for the management of the construction project contract. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our audit. We did not rely on computer-processed data to accomplish our
audit objective.

An exit conference was held with Idaho Operations Office management on January 19, 2012.




                                                7
                                                                    IG Report No. OAS-L-12-02

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
